UN ITED STATES OF AM ERICA

FEDERAL TRADE COMMISSION
W ASH IN GTO N , D .C. 20580

D ivision of M arketing Practices
Craig Tregillus
ctregillus@ ftc.gov

D irect D ial: (202) 326-2970
Facsim ile: (202) 326-3395

April 16, 2009
T. Scott Gilligan, Esq.
Gilligan Law Offices
3734 Eastern Avenue
Cincinnati, OH 45226
Dear Mr. Gilligan:
You have asked for a clarification of Staff Opinion 09-1,1 because you are concerned that
portions of that opinion might be taken out of context and misinterpreted. You express
particular misgivings about statements you believe could be read to imply that “the basic
services fee must be the same for each of the clients of a funeral provider,” and thus might
suggest that the Funeral Rule prohibits funeral providers from providing free or nominal cost
funerals for indigents and in other special cases.
The point we made in Opinion 09-1 was that funeral providers must charge the same
basic service fee listed on their General Price List (“GPL”) to clients who buy a discount
package of funeral goods and services and those who do not. Only the goods and services
provided in a discount package may be discounted, not the basic services fee, for the reasons
explained in the Opinion.
In fact, the statement from the Opinion that you cite as causing the greatest concern was
carefully footnoted with an acknowledgment that funeral providers may charge lower prices for
special groups, such as indigents, infants, and memorial society members.2 The one prerequisite
for charging lower prices for such special groups, as the Opinion noted, is the requirement that a
funeral provider provide qualifying clients with an alternative price list. As the Compliance
Guide emphasizes:
Remember: Even if you use alternative price lists, you still must comply with all
Rule provisions, including mandatory disclosures and itemized prices.3
1

Staff Opinion 09-1 (Feb. 17, 2009).

2

Id. at p.3, n.10, and accompanying text.

3

Complying with the Funeral Rule (June 2004), p. 13. See 47 Fed. Reg. 42260,
42299 (Sept. 24, 1982) (“Finally, nothing in the rule will prevent funeral directors from meeting
any perceived social responsibility to make services available at nominal charges for welfare
cases or from charging special lower prices for infant deaths or other special cases.”)

T. Scott Gilligan, Esq.
Page 2 of 2
You also seek clarification that Opinion 09-1 is not meant to imply that a funeral
provider is required to include the full basic services fee listed in its GPL in its fees for
forwarding and receipt of remains, direct cremation, and immediate burial. You are correct that
because the Opinion does not address that question, no such inference can be drawn from it.
That issue has been raised in a separate request, and will be addressed in a forthcoming staff
opinion.
The views expressed in this letter are those of the FTC staff. They have not been
reviewed, approved, or adopted by the Commission, and they are not binding on the Commission
or any individual Commissioner. However, they do reflect the views of FTC staff charged with
enforcement of the Funeral Rule. Staff Funeral Rule opinions are routinely posted on the FTC
website at http://www.ftc.gov/bcp/conline/edcams/funerals/staffopinions.shtm.
Sincerely,
/s/
Craig Tregillus
Funeral Rule Coordinator

